  Department. of Health and Human Servces
         OFFICE OF
     INSP TOR GENERAL




MEDICAI HASSLE: STATE RESPONSES
   TO PHYSICIA COMPLAS




             0. stRVlq'



       ff
                          Richard P. Kusserow
        '0
                          INSPECfOR GENERA
              'f3a
                               MACH 199
                          OFFCE OF INSPECfOR GENERA
The mision of the Offce of Inpector General (OIG), as mandated by Public Law 95-452, as
amended , is to protect the integrty of the Department of Health and Human Servce ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carred out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Offce of Audit Servce, the
Offce of Investigations , and the Offce of Evaluation and Inspections. The OIG also inform
the Secretary of HHS of program , and management problems , and recmmends courses to
correct them.


                             OFFCE OF AUDIT SERVICE
The OIG's Offce of Audit Servce (OAS) provides all auditing servce for HHS , either by
conducting audits with its own audit resource or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilties and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and effciency throughout the Department.

                             OFFCE OF INTIGATIONS
The OIG' s  Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criinal convictions
adminitrative sanctions ,   or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFCE OF EVALUATION AN INSPECfONS
The OIG's    Offce of Evaluation and Inspections (OEI) conducts short- term   management and
program evaluations (called inpections) that focus on issues of concern to the Department
the Congress ,and the public. The findings and recmmendations contained in these inpection
report generate rapid , accurate, and up- to- date information on the effciency, vulnerabilty,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian , Ph. , Regional Inspector
General , Offce of Evaluation and Inspections , and Martha B. Kvaal , Deputy Regional
Inspector General , Offce of Evaluation and Inspections , Region 1. Participating in thi project
were the following people:

       Boton Region                                                   Headquars
       Rusell W. Hereford ,     Ph.   Project Leader                  Vicki Greene
       David Schrag
       David R. Veroff
  Department of Health and Human Servces
          OFFICE OF
     INSPECTOR GENERAL




MEDICAI HASSLE: STATE RESPONSES
   TO PHYSICIA COMPLAS




         :0' .StRVtCl



                        Richard P. Kusserow
                        INSPECfOR GENERA
         4lf'cf3'O
                            OEI-OI-92-O100
              EXECUTIVE SUMMAR Y

PUROSE
This study describes approaches that States have taken in response to concerns about
Medicaid' s admistrative burden on physicians.

BACKGROUN
Physicians contend that the "hassle factor --administrative red tape associated with
participating in Medicaid-- discourages many doctors from treating patients who are
covered by Medicaid. The perceived hassle compounds other factors contributing to
low physician partcipation ,   most notably low fees relative to other payers. When
physicians refer to the adminstrative burden , they generally mean such problems as

       Slow payments;
       Rejection of claims because the biling form was completed incorrectly;
       Difculties in correcting claims that contain errors;
       Inabilty to veri recipients ' Medicaid eligibilty, leading to claim denials;
       Frequent changes in policies , covered procedures , and required documentation;
       Obtuse provider manuals that do not meet the needs of program providers.

We identifed States that are working to reduce Medicaid hassle through intervews
with offcials of national and State medical societies , staff of the Health Care
Financing Adminstration , policy analysts familiar with State health issues , and a
review of the literature on Medicaid physician participation. We then intervewed staff
from the Medicaid program , fiscal agent , and medical society in these States , and
reviewed avaiable wrtten material. We also examied data from an DIG survey of
State Medicaid electronic claims management capacity, conducted in sprig 1991.

FIINGS
We   id ni        approache tht State have
complain about Medaid's adtratie            bur 1. Medaid
                                                   resnd to          cr
                                               foun to be response to physin
                                                                              about
claim presg, commatin between physins                and    agen            , and
provi manuls.
Improvg Oai Procing
      At least 28 States accept electronic claims for physician servces.



      At least 21 States use automated systems to answer physician inquiries about
      claims status, recipient eligibility, and other routine matters.
       Maryland and Florida give physicians wrtten guides that provide clear
       instructions on how to correct problem claims.

       Michigan and Florida use specialized programs and instructors to train
       physician offce staff about Medicaid billng and policy.

Improvg Communcation between Physician and Medicad

       Washigton , Alabama , and Missouri established joint Medicaid-physician      task
       forces to identify and resolve administrative obstacles to physician participation.

       Florida uses its district Medicaid offices as provider relations units and
       participates in activities of State and local medical societies.

       Maryland employs a team of consultant nurses to enroll physicians for pediatric
       care and to assist them with administrative issues.

SimpIig Provder Manua
       Michigan is revising its provider manuals to make them more understandable to
       physicians and their staffs.

       Maryland distributes manuals for pediatric screening servces that simplif    the
       biIg process and explain recommended screening schedules and tests.
CONCLUSIONS

On the basis of the reports from State government and State medical society     offcials
each of these approaches appears to have potential as a constructive response to
physician complaints about Medicaid hassle. In weighing the potential impact of these
approaches and their applicability elsewhere , it is important to take the following three
considerations into account:



       State and Federal requirements for financial accountabilty mean that some
       tension between Medicaid' s administrative requirements and what providers
       perceive as hassle is unavoidable.

       Other policy initiatives , such as higher fees and development of managed care
       systems, often accompany efforts to reduce Medicaid' s administrative burden.

      Fiscal constraints facing State governments limit the extent to which Medicaid
      programs can implement strategies to reduce the administrative burden.
                                                                                                                             .....................................
                                                                                                                                  . .. .. .. .. ... ... ... ... ... ... ... ... ....................... ... .. .. ... .. .. .. .. .. .. .. .
                                                                                         . .. .. .. .. .. .. .. .. .. .. .. .. .. .                                                                                                        ..
                                                                                                                                                                                                                                           ....




                                                                                       TABLE OF CONTENTS



                                                                                                                                                                                                                                   PAGE
 EXECUTIV SUMY
 INODUCTION
 FININGS                                                                             ..................................................... 4

                             Improvig Claims Processing

                             Improvig Co=unication .......................................                                                                                                                                                        8

                            Simplifg Provider Manuals
CONCLUSIONS

APPENDIX A: Methodology....................................... A-

APPENDIX B: Notes. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                                                                                                   . . . . . . . . . . .. B-
             ' "




                           INTRODUCTION

PUROSE
Ths study describes strategies that States have adopted in response to concerns about
Medicaid' s administrative burden on physicians. It responds to a request from the
House Energy and Commerce Subcommittee on Oversight and Investigations , which
asked that the Offce of Inspector General provide inormation on State efforts to
streamle Medicaid administrative processes for physicians.

BACKGROUN

Deg Medaid'          Admtie Bur
Physicians contend that the "hassle factor --adminstrative red tape associated with
participating in Medicaid-- discourages many doctors from treating patients who are
covered by Medicaid. When providers refer to the adminstrative burden , they
generally mean such problems as:

       Slow payments;
       Rejection of claims because the biling form was completed incorrectly;
       Difculties in correcting claims      that contain errors;
       Inabilty to verify recipients '   Medicaid eligibility, leading to claim denials;
       Frequent changes in policies , covered procedures, and required documentation;
       Obtuse provider manuals that do not meet the needs of program providers.

Pediatricians reasons for limiting participation include (1) unpredictable payments
(2) complex Medicaid program regulations , (3) payment delays , and (4) restrictions on
health care servces covered by Medicaid. "! Priary care physicians have concluded
that " coverig more optional servces and reducing complicated benefit limitations and
requirements for prior authorization might encourage more participation.

Is    in Medaid Physin Partpatin

Although the admistrative burden appears to be an important factor in physician
dissatisfaction with Medicaid , it is critical to recognize that easing that burden alone
wi not necessarily   lead to higher participation rates.     Other factors--most notably a
low level of reimbursement relative to Medicare or private insurance--also contribute
to low Medicaid provider participation rates.

The Physician Payment Review Commission (PPRC) found that 38 State Medicaid
agencies ranked low fees as one of the two most important factors for physician
nonparticipation in Medicaid , while 14 agencies cited complex biIg, and 6 ranked
payment delays as one of the two most important factors. Indeed , the PPRC cautions
that simply reducing Medicaid' s administrative hassle without also increasing fees is
                      , '





unlely to induce more physician participation. 4   The National Governors

Association has found that low fee levels and malpractice costs outpace admiistrative€
problems as explanations for low partcipation among periatal providers in

Medicaid.€

Some physician complaints about Medicaid hassle may be due to misconceptions. The
American College of Obstetricians and Gynecologists (ACOG) cites examples from
two States. A New Hampshire physician task force concluded that Medicaid "biIg
pretty much like it is for other third-part payers. " In North Carolia , perceptions of
the " problems with claims processing. . . carried over from the 1970' , before the state
had intiated automated claims processing. "6 Florida s Medicaid director explains the
consequences of these perceptions: "We sometimes fid an entire practice that wi
not accept Medicaid , because the senior partners didn t get paid in 1978. They told the
new partners in 1983 Don t bil Medicaid because you won t get paid at all and if you
do get paid , it's a pittance.' Then they told the next group the same thig, and we
find three generations of physicians biased against us for things that happened more
than a decade ago. It s very hard to get these people back in our system.


Fedl Effort to Rede th Admtratie Bur on Physins
The Secretary of Health and Human Servces has committed to reducing "the
admistrative burden of Federal health care programs on patients and providers.
The Health Care Financing Administration (HCFA) has engaged the issue of
administrative burden on physicians who participate in Medicare. In February 1991
HCFA announced the establishment of an Advisory Committee on Medicare- Physician
Relationships. That committee s role is to advise the Secretary on Medicare policies
                                ' provision of servces to Medicare beneficiaries and
that directly relate to physicians
the " cost and admistrative burden the Medicare program places on physicians.
The scope of that advisory committee does not extend to Medicaid. Nevertheless
senior staff in HCFA' s Medicaid Bureau have expressed support for State efforts to
reduce the admistrative burden on physicians.
SCOPE AN                 METHODOLOY
We designed this study to provide inormation on approaches that a limited number of
States have taken to address Medicaid' s administrative burden on physicians. Ths
study does not comprehensively review and evaluate these State initiatives. Rather, we
highlight what some States are doing to address complaints from physicians about the
admistrative hassle that Medicaid participation imposes.
We identifed States that are working to reduce Medicaid hassle on physicians through
intervews with offcials of State medical societies , the American Medical Association
staff of the Health Care Financing Administration, and policy analysts famiar with
State health issues.

Our intervews with medical association staff members in 13 States provided additional
inormation on physician complaints about Medicaid hassle. In this report , we include
quotations from these intervews to give examples of their complaints.

We obtained inormation on a particular State s approach to reducing the
administrative burden from intervews with Medicaid , fiscal agent , and medical society
staff, and by reviewing wrtten material provided by the Medicaid agency.

We also examined data gathered between May and July 1991 , for a prior Offce of
Inspector General study of State Medicaid electronic claims management capacity.

Our review was conducted in accordance with the 
   Interim Standards for Inspections

issued by the President s Council on Integrity and Effciency.

Appendix A provides additional information on our methodology.
                                  FINDINGS€

 WEIDEN      NI APPROACH TIT                           STATE HAVE FOUN TO
           PHYSICI COMPLA ABOUT MEICAI'
 REPONSIV TO
 ADMllRTI BUREN. TIY REPOND TO CRCIMS ABOUT
 Cl PROCING, COMMCATION
 MEICAI AGENCI, AN PROVIER MAAL.
                                 PHYSICIS AN          BET
IMPROVIG CLAS PROCESSING




At let   28   State accept electrni   claim for physin     seres.
The development of biling softare  for personal computers means that even physician
practices with a small volume of Medicaid patients can submit their bils electronically.
In our prior survey of Medicaid programs ' electronic claims management capacity, 28
States reported the proportion of physician claims that are submitted electronically,
ranging from 3 percent in North Dakota to 66 percent in Georgia,u

Florida is one State that has made a significant commitment to increasing electronic
claims processing among physicians. In conjunction with its fiscal agent , Florida
Medicaid has developed softare that enables any provider to submit claims

electronically. The softare is available free of charge to providers. They may also
submit claims through private firms that offer electronic claims submission servces for
a per- claim fee. Fiscal agent staff report   that in 1991 ,   47 percent of physician claims
were submitted on electronic media.
                                                                      , "





Florida s electronic billng softare, entitled ASAP (Accelerated Submission and
Processing), is based on the HCFA- 1500 physician billing formP Physicians can
tailor the softare to meet their particular needs when it is installed. For example
some inormation , such as the physician s name and address and the date of the claim
may be automatically inserted each time a claim is prepared. In addition , physicians
can defie up to 10 common diagnoses and procedures which , with their billig codes
can be inserted with single keystrokes. Automated insertion of ths routine
inormation is liely to reduce errors, with a commensurate decrease in problem€
claims.€

Staff at other State Medicaid agencies we spoke with stressed their commitment to€
electronic claims submission. As one person said We are really pushing electronic
claims submission as havig great benefit. . .. It speeds processing, eliinates keying
errors, and claims come in cleaner. " Our 1991 survey of Medicaid agencies also
suggests that electronic claims submission is less expensive. 14 Additional advantages
cited for using electronic claims submission include:€

                        Faster payment compared to submission of paper claimsY The claim
                        can be read directly by the Medicaid computer and , if no errors are
                        found , can be paid in the next batch of payments.
                        Decreased likelihood of errors:€
                                o Built-in safeguards and edits in the computer software identif
                                               errors prior to actually filing the claim
                                    o Paper claims do       not have to be reentered into electronic
                                     format by fiscal agent staff, thereby reducing keypunch
                                     errors€
                        Reduced cost to the provider for clerical servces , as paperwork is
                        decreased and the physician s signature is not required on each claim.

Despite the advantages of electronic claims processing, most physician claims are stil
submitted on paper. Some of the reasons relate to Medicaid system requirements.
For example , Medicaid may require paper documentation that is not easily sent€
electronically, such as prior authorization or steriization consent forms . Other
barrers to electronic processing of physician claims relate to slow developments in the
state of the art. The most widely used physician claim form-- the HCFA 1500-- did not
have a standard electronic format until July                    1991.1€

In addition to these barrers , many physicians ' offces simply do not have available the
computer hardware necessary for electronic submission of claims. In fact , medical
society staff in one State estimated that fewer than 20 percent of physicians in private
practice have the computer capability necessary for computer submission of claims.
At least   21   State use autmated system to anser
sttu recie eligiiJ, an othe rout            matt.
                                                     physin   in      about claim

Determing whether a patient is eligible on a given day may well mean the difference
between a physician s being paid for providing a servce and havig that claim
rejected. At other times a physician simply   may need information on the status of bils
that had been submitted durig the prior month. In at least 21 States , Medicaid
programs have established automated systems that can help providers address these
questions. IS



Alabama s fiscal agent estimates that 75 percent of telephone calls to the Medicaid
inormation number were questions about recipient benefit limits or eligibilty, or the
status of submitted claims. To address this situation , Alabama established an
automated voice response system (A VRS) in June 1991. This system , which operates
7 days per week for 18 hours per day, allows physicians to obtain information on these
routine tyes of questions using a touch- tone phone.



In Nort Caolia, where a similar system operates, the fiscal agent estimates that the
A VRS handles 1 000 calIs per day, even without an eligibilty verification component.
By establishing an automated voice response system to answer these routine telephone
inquires , Medicaid staff are able to deal with more complex calls.

Maland updated its eligibility verification system in November 1991. That system
which operates 24 hours per day, 7 days a week, was enhanced to permit providers to
veri past dates of eligibilty for servces rendered up to 1 year previously. In
addition , even if a recipient does not have his or her Medicaid card , the physician can
use the recipient's Social Security number to obtain the current Medicaid identifcation
number.

Marland and Flri gie physins wren
to co"ect prble claim.
                                              gu tht provi clear     intrtins on how


Marland sends all providers , including physicians , a Turn-Around Document (TAD)
whenever a claim is delayed. The TAD includes an error code, a description of the
error, and an explanation of how to correct that error. Providers must resubmit the
corrected TAD to Medicaid within 45 days. At that point, Medicaid wil enter the
changes and corrections into the computer system , and the claim wil be processed.
The TAD and corrective explanations were created with input from the various
provider groups.



Florida has developed a " Trouble Shooting Guide for Medicaid Physician Providers " to
help physicians understand and correct the most common billig errors. I9 Physicians
receive this guide upon enrollng as a Medicaid provider , as well as periodic updates
when needed.
When a physician receives a remittance voucher listing claims that are not being paid€
the voucher contains a code explaining the reason for the delay. Although the
remittance voucher translates each code, it does not specif how to correct the
problem. For each problem ,    the Trouble Shooting Guide explains why the error
occurred and how to correct it. In addition , the guide references the appropriate page
of the Medicaid provider handbook in case the physician wants more information.

Milhian and     Flri
                  use spcilied programs                           trin physin offe
st  about Medaid bilg an poli.
                                               and intrtors to


Michiga s four-person seminar unit holds training sessions throughout the State on
Medicaid policy issues, coverage , and biling procedures. The semiar instructors
spend more than half their time in the field; the balance is spent preparig, editing,
and updating traing materials. In 1990, the training staff sponsored 152 semiars
reaching more than 4 000 providers. Medicaid staff estimate that more than half of
those attending were from physicians '
                                    offces.

In addition ,
            two field representatives visit providers in their offces to help resolve
biling problems , policy interpretations , and simiar issues. In 1990 , according to
Medicaid staf, the field representatives visited over 1, 700 providers on-site.

Florida conducts traing through a joint effort that involves the regional and central
Medicaid offces and the fiscal agent. Each plays a different role in the trainng
program. The district offce establishes district-specific guidelines for contacts with
providers. The central offce provides information on policy issues, such as eligibilty
criteria. The fiscal agent conducts training on billig procedures, problems , and
solutions; remittance vouchers; and electronic biling. During the fist six months of
1991 , Florida conducted training seminars in 17 cities for more than 2 600 individuals.
IMPROVIG COMMNICA110NS BE1WEN PHYSICIAS AN                              MEDICA€




id
Washigtn, Alabama and Misour establihe join Medaid-physin tak foTCes
        and resolve   adtratie obstacle to physin parttin.                              to



Involving the physician co=unity in solvig Medicaid red- tape problems can yield
mutual benefits. Medicaid program staff can gain a better understanding of the " real
world" in which physicians practice. This should enhance the staffs appreciation of
the impact that admistrative processes have on provider views of the program.
the same time, the State can use such an effort to educate the physician co=unity
about the constraints under which the Medicaid program operates. These constraints
may include inerent aspects of the    program    (e.   the need to verify recipient
eligibilty), State fiscal problems that limit the availabilty of funds , or Federal
requirements over which States have no control.

We intervewed offcials in three States--Washigton, Alabama, and Miour--that had
established physician task forces to try to increase physician participation in Medicaid.
They described concrete steps that emerged from these task forces. As the director of
one State Medical Society told us, the task force " is the best thing to come out of
Medicaid in years. It has really been a boon.

As a result of Washigton s "Red Tape Task Force " established in 1989, Medicaid
              claried definitions of emergency and non emergency procedures and
              distributed their corresponding procedure and diagnosis codes to
              physicians and hospitals;
              established field units to give technical assistance to physicians; and
              identified acceptable documents to confirm that a recipient lacks private
              third part coverage.€


Alabama s Physician Task Force, established in 1990, led to
              an automated voice response system;
                                                                        , "





                increased time limits for claims submission from 180 to 365 days;
                assigrent of Medicaid eligibilty numbers to infants before birth , to
                make them eligible for Medicaid at birth; and
                shortened screening forms for the Early Periodic Screenig, Diagnosis
                and Testing (EPSDT) program.

Miour' s physician task force, established in 1989, implemented
                a toll-free telephone number for eligibility verification and provider€
                information (previously, a toll call paid for by the physician); and
                an increase in the number of errors that can be identified durig       the
                initial claims processing run , so that the same claim is not rejected
                multiple times.



Flri                       offes as provi relatins un
acti of Stateditand Medaid
        uses Us
                    loal meal socti
                                                                      and partpates in



Florida has restructured its 11 district Medicaid offices. Previously, these local offces
had been providers of health servces such as transportation and EPSDT. In their new
confguration , the district offces are an information and access point for consumers
and providers. Provider- focused     activities include:
                recruiting new providers to the program;
                resolving some claims payment problems , such as filing limts and
                eligibilty issues; and
                maintainng and updating provider records.

In addition ,
            Florida Medicaid has begun to participate actively in State and local
medical society activities. This participation includes attending meetings of physicians
and their biling admiistrators. The director of the program notes We staff a booth
at the annual medical society conventions , and try to sell ourselves , just like any other
vendor.

Florida Medicaid and the State medical and osteopathic societies mailed recruitment
material to every nonparticipating physician in the state. These materials included a€
new pamphlet entitled "Medicaid Now Pays " explaining improvements in program fees
and operations.


Maryla emplos a team of consnt nues
to   ast th     wi adtrtie is.
                                                  to elUoll   physins for   petr care and
Maryland combines active recruitment and administrative simplification to attract
providers to Medicaid' s EPSDT program , Healthy Kids. Seven nurse consultants
                               , "





recruit providers for Healthy Kids , maintain ongoing relations with them-- including
assistance with Medicaid biling and administrative issues--and conduct annual quality
assurance visits. Each nurse consultant covers a different area of the State.
Recruitment efforts focus on physicians who treat children--pediatricians , famiy
practitioners, and general practitioners. When a physician agrees to enroll , the nurse
consultant helps obtain a Medicaid provider number , addresses programmatic issues
and answers questions about working with Medicaid.


One key nurse consultant role is explaining admiistrative and biling   processes
focusing on exactly what an EPSDT provider must do in order to be paid. According
to the director of the program The payment system is very comprehensive--it is just
not very useful. We go in and tell the providers exactly what they need to do to make
the (biling) forms work for them. . . what boxes to fil in , what doesn t need to be
completed , what doesn t apply to them.€

The nurse consultant also provides an ongoing contact for EPSDT providers who have
questions or problems with Medicaid biling or other issues. Ths continuing
relationship between health care professionals appears to be an important element of
provider satisfaction. Providers apparently prefer to deal with a professional colleague
whom they know rather than a "faceless entity at the other end of the telephone.

Program staff estimate that the number of EPSDT providers has grown from 375 in
early 1990 to more than 900 today, as a result of these outreach and recruitment
efforts.€
SIMPLIG PROVIER MAAL€




Michigan is revg      it provir manuls to make   th mare untandble
physins an th         sta.
Michiga has begu to simpli its Medicaid manuals with an emphasis on graphics€
reference indexes , and simple language. The revisions are based on surveys and€
discussions with biling staff in physicians ' offces. In addition to makig the manual€
simpler to understand and use , staff hope that the revised format wil make it easier to€
distribute policy changes to providers.€

Another objective of the Manual Makeover Project is improving Medicaid' s image
among providers. Medicaid staff told us that their revisions have been widely€
accepted withi the department, and " every doc on our Medical Society liaison
commttee loved it. " In a pretest of the draft manual, providers particularly lied its
simplicity. They were not sure , however, that the claims processing system would
actually work as the new manual describes. To address this concern , project staff
continue to work with the claims payment component of the Medicaid agency to€
coordinate necessary changes.



Budget constraints have slowed the manual makeover process. A new manual has
been fialied for durable  medical equipment suppliers only. Medicaid staff note that
although the revised physician manual is temporarily on hold, they are committed to
proceeding.€
Maryland ditrutes       petr
                    manuls for           screeng seres     tht sipli th bilg
pres an     exlain reomm screeg schedules and tets.
Marland has developed two manuals for providers in its Healthy Kids initiative. A
biIg manual    ilustrates exactly how to complete the biling form. The document also
contains procedure , immunization , and laboratory servce codes and explains how to
refer chidren for additional treatment under EPSDT.€

The Screenig Provider Manual contains information on current preventive child
health standards and practices , as well as State and Federal regulations. Based on
recommendations of the American Academy of Pediatrics , the manual includes
optional gudelines for pediatric interval screening. These guidelines include forms€
that can be used to document screening results for each age interval.
                                                                  , "




                            CONCLUSIONS

Based on reports from State Medicaid agencies and medical society staff, each of the
approaches described in this report appears to have potential as a constructive
response to physician complaints about Medicaid hassle. Other States may wish to€
examine these intiatives in more detail to determine if they might work in their
situation.

In weighing the potential impact of these approaches and their applicability elsewhere
it is important to take into account three considerations:

Fedl and State
between Medaid'
                   req
                    adtie reqem
                                for fincl accounbil mean th some
                                                and what
                                                                       ten
                                                           provi peeie as hale is
unvoidble
To some degree, the burden that physicians and other providers perceive as a hassle is
a function of Medicaid' s public nature and the need to monitor the expenditure of
public funds. As the director of one Medicaid program told us If Medicaid receives
a clai that is wrong, it goes back to the doctor. Every claim is considered a bil
against the State and it' s ilegal for us to fi it on our own. Just because other payers
give away money doesn t mean that we do.
Medicaid pays for servces for eligible individuals only. Yet Medicaid eligibilty is
much less stable than for persons with Medicare or private insurance coverage.
Whether or not someone is actually eligible for Medicaid coverage depends on such
factors as income , marital status, and family makeup. Changes in any of these factors
may affect a recipient's status. Although verig whether someone is eligible for
coverage on the date of treatment is a hassle, it is necessary to ensure payment.

Several States also informed us that some of the hassle results from Federal
requirements. For example ,   physicians and patients must complete and maintain
special documentation for sterizations, hysterectomies , and abortions.

Although empirical evidence is limited , hassle is not unique to Medicaid or public
payers. The Texas Medical Association (TM) has been keeping a "hassle factor log
to compile complaints from members. As of October 1991 , TM had received fewer
complaints for Medicaid (17 complaints) than for Workers ' Compensation (52),
Medicare (44), or Aetna Insurance (22).

Oth poli inties suh as higher fees an
oft accompa efort to rede Medaid'
                                               deelopme of maged care
                                              adtrtie bur                     syst
State efforts to decrease Medicaid hassle for physicians do not take place in isolation.
Florida , for example, raised physician fees over a four-year period to at least the 50th
percentile of Medicare fees. Maryland and Missouri increased fees for obstetricians to€
improve prenatal care.€

Many of the efforts to reduce Medicaid hassle focus on traditional fee-for-servce€
medicine. At the same time , many State Medicaid programs are encouraging the€
development of managed care systems for Medicaid recipients. Although we did not€
gather data on managed care programs , Maryland , Florida , and Michigan informed us€
that they are actively working toward this goal.€

In addition ,   hassle factor reduction may affect providers other than physicians. For€
example , pharmacists and hospitals are more likely to submit claims electronically than€
are physicians. Manuals can be simplified and made easier to understand for all€
Medicaid providers.€

Fiscal constrin
can
                    facig State   gover li th ex to€ whih Medaid proms€
    imple stteg to rede th adtrtie bur€
Although some States have raised physician fees as part of their strategy to improve€
physician participation , the fiscal climate surrounding State budgets makes it unlely€
that fee increases will be widespread. State fiscal diffculties also may affect efforts to€
reduce the admistrative burden of Medicaid. We discovered two specific examples€
of how these fiscal problems can affect attempts to reduce Medicaid hassle. In€
Michigan , the Medicaid Manual Makeover project has been delayed , because of the€
resources required to design, publish , and coordinate a new set of manuals. Likewise€
in Missouri , we were told that the physician task force has been inactive over the past€
year because of the State s fiscal problems.€

Even in light of these fiscal constraints , the State responses to Medicaid' s hassle€
appear to reflect an awareness that physician concerns have some legitimacy and€
should be addressed. A staff person from one program summaried the comments of€
several others when she told us that " Medicaid has changed its philosophy to improve€
customer servce. If we can t increase fees , at least we can make it as easy as possible€
to do business with us.

                                                           , "€




                            APPENDIX A€
                                 METIODOWGY
We conducted this study in two stages:

1. To identify State intiatives , we reviewed available literature and intervewed staf
from:

      Physician organiations:    The American Medical Association , the American
       College of Obstetricians and Gyecologists , and the American Academy of
      Pediatricians. We intervewed State medical society staff in Alabama
      Arkansas , California , Georgia , Florida, llinois, Iowa , Michigan , Missouri , New
      York, Ohio, Pennsylvania , and Texas.

      State organizations: National Governors ' Association , National Conference of
      State Legislatures , American Public Welfare Association , and
      Intergovernental Health Policy Project.

      Health Care Financing Administration , Medicaid Bureau.

      Physician Payment Review Commssion.


2. To obtain inormation on a particular State s approach to reducing the
admistrative burden we intervewed staff from the Medicaid program , the fiscal
agent , and medical society in these States. We also reviewed wrtten material
provided by the Medicaid agency.€


We examied data gathered in two surveys for an OIG study of State Medicaid
electronic claims management capacity (OEI- OI- 91-00820 Point-of-Servce Claims
Management Systems for Medicaid " Draft Report, January 1992; OEI- Ol-91- 00821
 Electronic Funds Transfer for Medicaid Providers " Draft Report, January 1992).
These surveys were:

      A mail survey of Medicaid programs, conducted from May to July 1991 , to
      which 45 States responded. We received at least partial responses from every
      State except Alaska , Arzona , Arkansas , Delaware , and Ohio.

      Telephone intervews with Medicaid claims management staff in 49 States (all
      except West Virginia) and the District of Columbia.
                                                                                     '"   , "
                                                                                            , ,"€"€




                                    APPENDIX B€

                                                  NOTE

1. Beth K. Yudkowsky,           Jenifer D. C. Cartland , and Samuel S. Flint Pediatrician
Partcipation in Medicaid: 1978              to 1989   Pediatrcs         85 no. 4 (April 1990): 567- 77.

2. Janet D. Perloff,      Phillp R. KJetke, and Kathr M. Neckerman Physicians
Decisions to     Lit Medicaid Participation: Determants and Policy Implications
Joumal of Health Politics, Policy and Law                  , no. 2 (Summer 1987): 221- 35.

3. Anne Schwartz ,      David C. Colby, and Anne Lenhard Reisinger Variation in
Medicaid Physician Fees          Health Affairs         , no. 1 (Spring 1991): 131- 39.
4. Physician Payment Review Commission                   Annual Report to Congress                    1991 ,   p. 308.


5. Deborah Lewis-          Increasing Provider Partcipation: Strategies for Improving
                        Idema

State Perinatal Programs The National Governors ' Association , 1988. This study
addresses provider participation in both Medicaid and Maternal- Child Health
Programs. The author notes that Medicaid agencies tend to place more emphasis on
low reimbursement as the priary reason for low participation.

6. American College of Obstetricians and Gynecologists Improving Access to Maternity
Care: Obstetrc Provider Partcipation in Medicaid Washington , D. , 1991 , pp. 14-15.

7. "Makig Florida s Medicaid Program ' Provider Friendly, State Health Notes
October 21 ,    1991.

8. Statement by Louis W. Sullvan ,Secretary of Health and Human Servces on behalf
of the Forum on Administrative Costs , November 5 , 1991.

9. 56   FR   8353 , February 28 ,    1991.


10. These surveys provide information for two Office of Inspector General studies:
 Point-of-Servce Claims Management Systems for Medicaid " OEI- 01-91- 00820, Draft
Report, January 1992, and "Electronic Funds Transfer for Medicaid Providers " OEI-
01-91- 00821 , Draft Report, January 1992. In the notes to this study, we refer to the
survey documents as "OIG Telephone Survey" for the telephone intervews conducted
with Medicaid claims management staff, and " OIG mail survey" to describe the mail
survey of Medicaid programs.
                                  , "





11. OIG mail survey. The followig States were able to provide data on the
percentage of physicians ' claims that was submitted electronically: Alabama
Californa , Colorado, Connecticut , District of Columbia , Florida , Georgia , Idaho
Indiana , Kansas , Kentucky, Louisiana, Massachusetts , Maryland , Minnesota
Mississippi , Montana , North Carolina , North Dakota, New Jersey, Oklahoma , Oregon
South Carolina , Tennessee, Texas , Utah , Washington , and Wisconsin. It is liely that
some other States also accept physician claims electronically, but were unable to break
out the proportion. Only four States--Nevada , Rhode Island , South Dakota , and
Wyomig--indicated affrmatively that they did not receive electronically submitted
physician claims.

12. Ths figure compares    with 87 percent of pharmacy claims , 81 percent of hospital
claims , and 41 percent of dental claims. The 47 percent figure for physician clais
does not mean that 47 percent of Medicaid physician providers are using electronic
media. One would expect that large-volume Medicaid providers account for a
disproportionate share of electronically submitted claims.

13. The HCFA- 1500 is identical to the American Medical Society' s Universal Biling
Form. According to the American Public Welfare Association, 33 States use this form
for physician claims submitted on paper. (Medicaid Management Information Systems--
Provider Partcipation,   Cost Containment Initiatives: State Characteritics Summer 1991.)

14. OIG mail survey. Twenty States provided usable information on the cost per
claim and the percent submitted electronically. The mean cost per physician claim
was $. 83.   The cost and percent were highly   negatively correlated (r = -   57), that is the
higher the percent of claims submitted electronically, the lower the cost per claim.

15. Offce of Inspector General Point-of- Servce Claims Management Systems for
Medicaid " Draft Report, OEI- 01-91- 00820, January 1992. In 47 States responding to
this question , the mean payment time for electronic claims is 10 days , compared to 17
days for paper claims.

16. In our telephone survey, we found that three States-- Kansas , Montana , and New
York--are workig on ways to automate prior authorization , although none is
operational yet.

17. "Point-of-Servce Claims Management Systems for Medicaid "         p. 11.


18. . OIG telephone survey. Nineteen States indicated in that survey that they had
telephone automated voice response systems to veri eligibility: Alaska , Californa
District of Columbia, Florida, Georgia , Iowa, Kansas, Louisiana , Maryland
Massachusetts , Minnesota , Missouri , Nebraska, New York, North Dakota, Ohio
Oregon , Texas, and Wisconsin. In addition , we learned through subsequent intervews
that Alabama implemented such a system in June 1991 , and North Carolina has an
automated voice response system for general questions , but not eligibilty verication.
19. Florida has prepared similar guides for other Medicaid providers , including
hospitals , durable medical equipment and hearing aid suppliers , and nursing homes.
